United States v. Hernandez, 806 Fed.Appx. 345 (2020)

352, 357 (5th Cir. 2005). A district court’s ruling on a motion
to suppress “should be upheld ‘if there is any reasonable view
of the evidence to support it.’ ” United States v. Massi, 761

806 Fed.Appx. 345 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

F.3d 512, 520 (5th Cir. 2014) (quoting
United States v.
Michelletti, 13 F.3d 838, 841 (5th Cir. 1994) (en banc)).
At issue is whether a team of Deputy U.S. Marshals was
justified in conducting a protective sweep of the premises
when they arrested Hernandez at his home pursuant *346
to an arrest warrant. “The protective sweep doctrine allows
government agents, without a warrant, to conduct a quick
and limited search of premises for the safety of the agents

UNITED STATES of America, Plaintiff-Appellee
v.
Joe HERNANDEZ, Defendant-Appellant

and others present at the scene.”
United States v. Mendez,
431 F.3d 420, 428 (5th Cir. 2005). The Supreme Court
has recognized the lawfulness of sweeps supported by
“articulable facts which, taken together with the rational
inferences from those facts, would warrant a reasonably
prudent officer in believing that the area to be swept harbors
an individual posing a danger to those on the arrest scene.”

No. 19-40837
|
Summary Calendar
|
FILED May 28, 2020
Appeal from the United States District Court for the Southern
District of Texas, USDC No. 6:18-CR-124-1

Maryland v. Buie, 494 U.S. 325, 334, 110 S.Ct. 1093, 108
L.Ed.2d 276 (1990).

Attorneys and Law Firms

The record indicates the marshals who approached
Hernandez’s residence had information that he was a gang
member and were aware that he was accused of a violent
break-in and had been previously charged with manslaughter.
When they announced their presence, his response was to
barricade his front and back doors. Although Hernandez
subsequently chose to submit to the marshals, the district
court did not err in finding these circumstances sufficient to

Lauretta Drake Bahry, Assistant U.S. Attorney, Carmen
Castillo Mitchell, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Texas, Houston, TX, for Plaintiff
- Appellee
Marjorie A. Meyers, Federal Public Defender, H. Michael
Sokolow, Assistant Federal Public Defender, Federal Public
Defender's Office, Southern District of Texas, Houston, TX,
for Defendant - Appellant

warrant a protective sweep. Cf.
United States v. Silva, 865
F.3d 238, 242 (5th Cir. 2017). That marshals who testified
at the motion hearing spoke of the sweep as “standard
procedure” does not alter this, as subjective motivations
are generally irrelevant to determining whether actions are

Before DAVIS, SMITH and HIGGINSON, Circuit Judges.
Opinion

reasonable under the Fourth Amendment. See
United
States v. Wallen, 388 F.3d 161, 167 (5th Cir. 2004). The
Supreme Court has given weight to subjective intent in only
“a very limited subset of [its] Fourth Amendment cases,” and

PER CURIAM: *
Joe Hernandez pleaded guilty to being a felon in possession
of a firearm. He reserved the right to challenge the denial
of a motion to suppress the gun found at his residence, a
challenge he now raises on appeal. “When reviewing a denial
of a motion to suppress evidence, this Court reviews factual
findings for clear error and the ultimate constitutionality

no such case applies here.
Ashcroft v. al-Kidd, 563 U.S.
731, 743, 131 S.Ct. 2074, 179 L.Ed.2d 1149 (2011).
AFFIRMED.

United States v.
of law enforcement action de novo.”
Robinson, 741 F.3d 588, 594 (5th Cir. 2014). Evidence is
reviewed in the light most favorable to the prevailing party,
here the Government. See United States v. Gibbs, 421 F.3d

19
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX 1

United States v. Hernandez, 806 Fed.Appx. 345 (2020)

All Citations
806 Fed.Appx. 345 (Mem)

Footnotes
*

Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not be published and is not
precedent except under the limited circumstances set forth in 5th Cir. R. 47.5.4.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

